                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

Case Number: A07100054                                                             Page 1of 1


       I n October 2006, a reviewer noted a proposal1 used a figure from a published paper2
       without appropriate citation. We contacted the PI and co-PI and learned the P I was
       solely responsible for the figure and the associated text. The PI noted a sentence, on
       the page preceding the figure, describing part of the proposed methodology contained a
       citation to the paper, with the figure appended to the end of the citation. He argued
       this reference created a clear link between the figure and the paper. Accordingly, he
       said he did not feel it was necessary to add the reference again in the figure caption.
        The P I also asserted that a t no point in the proposal did he assert the methodology
        illustrated i n the figure or the data were developed i n his lab. He said he did not link
        the figure to any of his publications.
        Our inquiry concluded t h a t the manner in which the PI referenced the figure i n the
        text leaves the reader uncertain a s to the source of the figure. However, we conclude
        the PI'S practice, while falling short of the community's best practices, does not rise to
        the level of research misconduct. We suggested to the P I that any use of another's data
        or figure should be clearly cited a t the point of usage, not i n the text on a different
        page. Accordingly, this case is closed.




N
-   OIG Form 2 (11102)
